                    Office of Inspector General
         Export-Import Bank of the United States




Sponsored Transactional Travel




                                       Audit Report
                                      June 04, 2010
                                     OIG-AR-10-04
Office of Inspector General
                                          Export-Import Bank
                                          of the United States

June 4, 2010


MEMORANDUM

TO:                  Joyce Isaac, Assistant Controller
                     Faisal Siddiqui, Assistant General Counsel for Administration
                     Brian Terhaar, Chief of Administration

FROM:                 Jean Smith
                      Assistant Inspector General for Audit

SUBJECT:             Audit of Export-Import Bank’s Sponsored Transactional Travel

This memorandum transmits Audit Report OIG-AR-10-04, Sponsored Transactional Travel.
This audit was initiated by the Office of Inspector General of the Export-Import Bank of the
United States (“Bank”) to determine whether the Bank policies, procedures, and controls on
non-federal sponsored transactional travel are adequate to ensure compliance with regulations.

The audit found that the Bank generally complied with its established policies and procedures
regarding the approval process, documentation requirements, and collection from sponsors.
However, improvements are needed in the Bank’s policies and procedures to obtain travel
expense reimbursement from the sponsor and travel voucher submission from employees. We
made three recommendations to address these findings. Management concurred with the
findings and recommendations.

We appreciate the courtesies and cooperation provided to the auditors during the audit. If you
have any questions, please call me at (202) 565-3944.



cc:      Fred P. Hochberg, Chairman and President
         Alice Albright, Senior Vice President, Chief Operations Officer
         Audit Committee
         Jonathan Cordone, Senior Vice President and General Counsel
         Michael Cushing, Senior Vice President, Resource Management
         John Simonson, Chief Financial Officer
         Shannon McCall, Audit Liaison




                   811 Vermont Avenue, N.W. Washington, D.C. 20571
Sponsored Transactional Travel                                                 OIG-AR-10-04
                                      Audit Report



                            EXECUTIVE SUMMARY

The Office of Inspector conducted an audit of sponsored transactional travel taken by
employees of the Export-Import Bank of the United States (Ex-Im Bank or the Bank)
during Fiscal Years (FYs) 2008 and 2009. The specific audit objectives are to determine
whether non-federal sponsored transactional travel: (1) policies and procedures comply
with federal regulations; (2) controls are adequate to ensure compliance with regulations;
and (3) policies and procedures on the collection of reimbursements are adequate.

Our audit found that Ex-Im Bank has the authority to accept reimbursement from a non-
federal source for travel expenses incurred in connection to a Bank transaction. In FYs
2008 and 2009, Ex-Im Bank authorized 104 sponsored transactional trips from non-
federal sources. Of these 104 trips, we selected a sample of 39 for our review. These 39
trips were associated with 25 transactions, and as of March 26, 2010, Ex-Im Bank
approved 18 transactions, 6 were pending, 1 withdrew from Ex-Im Bank’s consideration.
According to an Ex-Im Bank official, offers from non-federal sources to reimburse the
agency for travel expenses are not accepted if the transaction does not have approval
potential.

We found Ex-Im Bank generally complied with its established policies and procedures
regarding the approval process, documentation requirements, and collection from
sponsors. Additionally, we did not identify a conflict of interest between the Ex-Im Bank
employee and the sponsor. Travel authorizations contained the required documentation
and approval by the employee’s supervisor and Ethics Official.

Of the 39 sampled cases reviewed, the Office of the Controller wrote off approximately 2
percent of the billed amount. As of the end of FYs 2008 and 2009, the outstanding
reimbursable balances for all sponsored travel were $28,854 and $158,266, respectively.
These balances include sponsored transactional travel and other sponsored travel (e.g.,
conference, seminar, and speaking engagement). Ex-Im Bank did not separate sponsored
travel reimbursable expenses by type.

While Ex-Im Bank’s efforts were positive, we noted that improvements are needed in the
Bank’s policies and procedures to obtain travel expense reimbursement from the sponsor.
We found that travelers did not always submit their travel voucher within five work days
after travel was completed. Also, Ex-Im Bank was not always reimbursed for all travel
expenses offered in the sponsor’s invitation. We made three recommendations to address
these findings. Management concurred with the findings and recommendations (see
Appendix A).




                                             i               Office of Inspector General
                                                                 Export-Import Bank of the United States
Sponsored Transactional Travel                                                 OIG-AR-10-04
                                      Audit Report


The recommendations are:

       •   The Office of Administration and Security (OAS) Director should develop a
           policy and procedures to follow-up on travel vouchers not submitted within
           the established time frame.

       •   The OAS Director should establish procedures to review travel authorizations
           for accuracy.

       •   The Assistant Controller should establish procedures to review bills for
           accuracy prior to sending them to the sponsors.




                                            ii              Office of Inspector General
                                                                 Export-Import Bank of the United States
Sponsored Transactional Travel                                                                             OIG-AR-10-04
                                                       Audit Report



                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i

I.         BACKGROUND .................................................................................................... 1

II.        OBJECTIVES ......................................................................................................... 2

III.       SCOPE AND METHODOLOGY .......................................................................... 2

IV.        FINDINGS AND RECOMMENDATIONS........................................................... 3

      A.   POLICIES AND PROCEDURES MEET EX-IM BANK’S AUTHORITY TO
           ACCEPT REIMBURSEMENT FROM A NON-FEDERAL SOURCE FOR
           TRANSACTIONAL TRAVEL .............................................................................. 3

      B.   FOLLOW-UP ON NON-RECEIPT OF TRAVEL VOUCHERS IS NEEDED .... 4
           Recommendation 1 ................................................................................................. 5

      C.   SPONSOR BILLING AND COLLECTION PROCEDURES NEED
           STRENGTHENING ............................................................................................... 5
           Recommendation 2 ................................................................................................. 6
           Recommendation 3 ................................................................................................. 7

ACRONYMS...................................................................................................................... 8

APPENDIX A: MANAGEMENT RESPONSE................................................................ 9




                                                               iii                     Office of Inspector General
                                                                                             Export-Import Bank of the United States
Sponsored Transactional Travel                                                 OIG-AR-10-04
                                      Audit Report



I.     BACKGROUND

As a general requirement for sponsored travel, the U.S. General Services Administration
(GSA) Federal Travel Regulations chapter 304, part 304.5 states that an agency may
accept payment from a non-federal source or authorize an employee to accept payment
on the agency’s behalf only when the: (a) employee is issued a travel authorization before
the travel begins; (b) agency has determined that the travel is in the interest of the
Government; (c) travel relates to the employee’s official duties; and (d) non-federal
source is not disqualified due to a conflict of interest.

Section 2(a)(1) of the Ex-Im Bank Act of 1945, as amended [12 U.S.C. 635(a)], enables
Ex-Im Bank, subject to regulations issued pursuant to 5 U.S.C. 553, to accept
reimbursement for travel and subsistence expenses incurred by a director, officer or
employee of Ex-Im Bank in accordance with subchapter I of chapter 57 of title 5, U.S.C.
In order to implement this statutory authority, Ex-Im Bank issued a regulation that set
forth the parameters for accepting payment from a non-federal source for an Ex-Im Bank
employee’s travel and subsistence expenses to attend or participate in an event relating to
the employee’s official duties. The regulation applies to events other than a “meeting or
similar function” as defined in 41 Code of Federal Regulations (CFR) 304-1.2(c)(3). The
rule enables Ex-Im Bank to accept travel expense payments in order to send employees to
such functions as meetings, formal gatherings, site visits, negotiation sessions and other
similar events in which the employee’s participation would further the mission of Ex-Im
Bank.

In order to avoid any actual impropriety or appearance of impropriety in the acceptance
of travel expense payments, the regulation prohibits an employee from soliciting
payments from a non-federal source. The regulation also requires that the employee’s
supervisor and the designated agency ethics official or his/her designee determine that
Ex-Im Bank’s interest in the employee’s attendance at the meeting or similar event
outweighs concern that acceptance of the payment by Ex-Im Bank may cause a
reasonable person to question the integrity of Ex-Im Bank’s programs or operations. As
provided in the authorizing statute, the regulation limits payments from a non-federal
source for travel and subsistence payments to the maximum per diem or actual service
limitations prescribed in 41 CFR chapter 301.

As of the end of FYs 2008 and 2009, the outstanding reimbursable balances for all
sponsored travel were $28,854 and $158,266, respectively. We were unable to identify
the outstanding balances attributed to sponsored transactional travel because Ex-Im Bank
did not maintain the data separately for sponsored transactional travel and for other
sponsored travel (e.g., conference, seminar, speaking engagement).

In FYs 2008 and 2009, Ex-Im Bank authorized 104 sponsored transactional trips from
non-federal sources.

                                            1                Office of Inspector General
                                                                 Export-Import Bank of the United States
Sponsored Transactional Travel                                                    OIG-AR-10-04
                                        Audit Report


II.      OBJECTIVES

The objective of this audit is to evaluate Ex-Im Bank’s policies and procedures for
sponsored transactional travel. The specific audit objectives are to determine whether
non-federal sponsored transactional travel:

•     Policies and procedures comply with federal regulations;

•     Controls are adequate to ensure compliance with regulations; and

•     Policies and procedures on the collection of reimbursements are adequate.


III.     SCOPE AND METHODOLOGY

The scope of the audit focused on sponsored transactional travel that Ex-Im Bank
employees took during FYs 2008 and 2009. We selected a random sample of 39 out of
104 sponsored transactional trips during this period for our review.

We interviewed key Ex-Im Bank staff to obtain relevant information/documentation
pertinent to this audit and to clarify relevant Ex-Im Bank policies and procedures.
Specifically, we met with representatives from the following: Office of General Counsel
(OGC), Office of the Controller (OC) in the Office of the Chief Financial Officer, and the
Office of Administration and Security (OAS) in the Resource Management Group.

We analyzed data obtained from Ex-Im Bank staff, as well as information available on
the Bank’s website such as the Travel Policy and relevant sponsored travel forms. We
also reviewed requirements and guidance provided by external sources such as the GSA,
Federal Register (FR), Public Law, and Government Accountability Office (GAO).

We conducted our fieldwork from January 25, 2010, to April 15, 2010.

We performed this audit to address Congressional and recent media attention concerning
Ex-Im Bank’s policy and practices in accepting non-federal reimbursement for travel
expenses related to transactions.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusion based on our audit objectives.



                                              2                  Office of Inspector General
                                                                    Export-Import Bank of the United States
Sponsored Transactional Travel                                                  OIG-AR-10-04
                                      Audit Report


IV.    FINDINGS AND RECOMMENDATIONS


A.     POLICIES AND PROCEDURES MEET EX-IM BANK’S AUTHORITY TO
       ACCEPT REIMBURSEMENT FROM A NON-FEDERAL SOURCE FOR
       TRANSACTIONAL TRAVEL

Ex-Im Bank’s policies and procedures comply with its authority to accept reimbursement
from a non-federal source for travel expenses incurred in connection to a Bank
transaction.

The Consolidated Appropriations Act, 2008, and the Omnibus Appropriations Act, 2009,
more specifically supply the Bank authority to accept reimbursement from a non-federal
source for travel expenses incurred in connection to a Bank transaction. Administrative
Expenses section of these Acts stated:

       “…that the Export-Import Bank may accept, and use, payment or services
       provided by transaction participants for legal, financial, or technical services in
       connection with any transaction for which an application for a loan, guarantee or
       insurance commitment has been made …”

An OGC representative at GAO concurred with our opinion that Ex-Im Bank has
authority to accept travel costs reimbursement from a non-federal source on transaction
related travel. This opinion was based on a review of the Ex-Im Bank’s statue and Ex-Im
Bank’s OGC regulation, published on June 17, 1994, in the FR announcing the Bank’s
policy on accepting reimbursement from a non-federal source for transactional travel.

The 39 trips under review for this audit were associated with 25 transactions, and as of
March 26, 2010, Ex-Im Bank approved 18 transactions, 6 were pending, 1 withdrew from
Ex-Im Bank’s consideration. According to an Ex-Im Bank official, offers from non-
federal sources to reimburse the agency for travel expenses are not accepted if the
transaction does not have approval potential.

Review of the Ex-Im Travel Policy found that the Bank’s policy provides requirements as
directed in GSA travel guidance. Additionally, all the required forms related to
sponsored transactional travel, such as Eib-00-05, Authorization for Acceptance of Travel
Payments for Transaction-Related Travel, provide assurance that established
requirements are met. Of the 39 cases reviewed, we found Ex-Im Bank complied with its
established policy and procedures regarding the approval process and documentation
requirements.




                                            3                Office of Inspector General
                                                                  Export-Import Bank of the United States
Sponsored Transactional Travel                                                    OIG-AR-10-04
                                       Audit Report


B.     FOLLOW-UP ON NON-RECEIPT OF TRAVEL VOUCHERS IS NEEDED

OC did not always have the necessary information to bill the sponsor for reimbursement
of funds in a timely manner because not all travelers submitted a travel voucher within
five work days after travel was completed. The OAS Chief of Administration stated that
it is the traveler’s responsibility to submit the voucher according to the Ex-Im Bank’s
Travel Policy requirements. OAS does not have a policy or procedures to follow-up on
non-receipt of vouchers. By not following up on un-submitted travel vouchers, Ex-Im
Bank’s ability to obtain reimbursement may be sacrificed by travelers’ failure to timely
provide sponsored related travel vouchers for processing.

Ex-Im Bank’s Travel Policy requires employee to “…submit the claim to the appropriate
higher level official for review, approval, and signature within five work days after travel
is completed…”

Of the 39 cases reviewed, we identified 15 vouchers that were not filed within the
required time period. Details on these 15 cases are presented below.

         •   12 cases filed after 5 work days but within 30 days;

         •   1 filed after 64 work days;

         •   1 filed after 193 work days; and

         •   1 did not file as of March 25, 2010 (the trip’s end date was September 16,
             2009).

For 14 of the above cases, OC billed and received the reimbursement from the sponsors.
For the case that was not filed, we identified the issue and brought it to OC’s attention.
OC had since contacted the traveler and requested the traveler to submit the voucher.

We also identified 1 traveler, outside of our 39 selected cases, who had 14 sponsored
trips during FYs 2008 and 2009 but submitted only 6 travel vouchers. While these trips
may not all be transaction related, we are reporting the results because the sponsor was
not always billed. We followed up with the traveler on April 7, 2010, and the traveler
told us that the unsubmitted vouchers will be provided for processing by April 16, 2010.

For the eight unsubmitted vouchers, we found the following:

         •   Two cases were billed to the sponsors by OC and payment was received in
             full. OC identified the reimbursements in the Administrative Accounting




                                             4                Office of Inspector General
                                                                    Export-Import Bank of the United States
Sponsored Transactional Travel                                                        OIG-AR-10-04
                                           Audit Report


              Activities (AAA) system Unbilled Receivables report1 and contacted the
              traveler’s office for information to bill the sponsors.

          •   Five cases with the obligation amount totaling $23,699.32 were not billed.
              The reimbursable amounts were not listed in the Unbilled Receivables
              report. Therefore, OC had no information to bill the sponsor for
              reimbursement.

          •   One case was not billed, and OC wrote off the entire reimbursable amount
              of $349. While Unbilled Receivables eventually reported this amount, OC
              determined that too much time had passed to bill the sponsor.


Recommendation 1
The OAS Director should develop a policy and procedures to follow-up on travel
vouchers not submitted within the established time frame.

Management Response
Management concurs with this recommendation. OAS has developed a recommended
procedure for following up on the Bank's travel vouchers when they are not submitted
within the established time frame of five days, per the Export-Import Bank Travel Policy.
If the traveler's voucher has not been received four business days after return from a trip,
an email notification will be sent to the traveler. If the traveler's voucher has not been
received 10 business days upon return of trip, an email notification will be sent out to the
traveler and his direct supervisor notifying them of this delay. This process has been in
effect since April 1, 2010.

Completion Date: April 1, 2010

OIG Comment
Management’s actions meet the intent of our recommendation.



C.      SPONSOR BILLING AND COLLECTION PROCEDURES NEED
        STRENGTHENING

Ex-Im Bank was not always reimbursed for all travel expenses offered by the sponsor
because controls were not in place to timely identify a sponsor reimbursement and
reconcile it to the amount billed. Failure to accurately bill the sponsor resulted in Ex-Im
Bank losing the opportunity to offset the funds received from the sponsor against the
expenses of the Bank.
1
 A transaction will normally be reported on AAA’s Unbilled Receivables report when OAS enters payment
for transportation or for per diem incurred during travel.
                                                 5                  Office of Inspector General
                                                                        Export-Import Bank of the United States
Sponsored Transactional Travel                                                  OIG-AR-10-04
                                       Audit Report



Sound management practices include establishing controls to ensure reimbursable funds
are timely and accurately identified and billed.

To identify sponsored transactions travel expenses for billing, OC generates the Unbilled
Receivable report each week. New bills, delinquent notices, and related documents are
scanned and emailed to sponsors bi-weekly. OC also sent a copy of the email to the
traveler with the intention of seeking assistance in verifying the accuracy of the bill and
collecting the reimbursement.

In the event the sponsor does not reimburse Ex-Im Bank within 180 days from the initial
bill, OC will write-off the debt. Of the 39 cases reviewed, the amount written off was
approximately 2 percent of the billed amount.

Review of the 39 sponsored transactional travel cases revealed Ex-Im Bank did not
receive the total reimbursable amount from the sponsor in 4 cases. Details on the four
cases are presented below.

         •   Two cases had discrepancies between the amount billed and amount that
             should have been billed. The discrepancies totaled $459. OC staff stated
             that human error was the cause in the first case. In the second case, there
             was a miscommunication between OC and OAS on what to bill the sponsor;

         •   One case was not billed to the sponsor. OC wrote off $1,780. Based on our
             discussion with OC staff, this happened due to a system error. The case did
             not show up on the Unbilled Receivables report until after the AAA system
             modification, which was much too late to be billed; and

         •   One case was incorrectly classified as regular (non-sponsored) travel. The
             reimbursable expense totaled $1,499, but OC never sent the bill. OAS’
             procedure includes classify sponsored travel by writing object class 2113 on
             the EIB Form 48-03, Travel Order/Request and Authorization. OC’s
             procedure includes reviewing and certifying Standard Form 1012, Travel
             Voucher, to ensure accuracy.


Recommendation 2
The OAS Director should establish procedures to review travel authorizations for
accuracy.

Management Response
Management concurs with this recommendation. OAS currently has strong procedures in
place to review travel authorizations for accuracy, but will enhance the current review and
compliance procedures for this process. A memo was sent to all Bank employees on April 26,

                                             6                Office of Inspector General
                                                                  Export-Import Bank of the United States
Sponsored Transactional Travel                                                 OIG-AR-10-04
                                      Audit Report


2010, by Alice Albright, Executive Vice President and Chief Operating Officer. This memo
instituted the new travel approval procedures effective April 26, 2010.

Completion Date: April 26, 2010

OIG Comment
Management’s actions meet the intent of our recommendation.


Recommendation 3
The Assistant Controller should establish procedures to review bills for accuracy prior to
sending them to the sponsors.

Management Response
Management concurs with this recommendation. Procedures will be established for the OC
to review all bills for accuracy prior to sending them to sponsors. The supervisor will
compare bills to all related travel documents and request written confirmation from
Administrative Services of any differences between the bill generated by the AAA system
and the travel documents. This process will commence June 7, 2010.

Completion Date: June 7, 2010

OIG Comment
When accomplished, the above action should satisfy this recommendation.




                                            7                Office of Inspector General
                                                                 Export-Import Bank of the United States
Sponsored Transactional Travel                                              OIG-AR-10-04
                                    Audit Report


                                  ACRONYMS

AAA system         Administrative Accounting Activities system
CFR                Code of Federal Regulations
Ex-Im Bank or
                   Export-Import Bank of the United States
Bank
FR                 Federal Register
FY                 Fiscal Year
GAO                Government Accountability Office
GSA                U.S. General Services Administration
OAS                Office of Administration and Security
OC                 Office of the Controller
OGC                Office of General Counsel




                                         8                 Office of Inspector General
                                                              Export-Import Bank of the United States
Sponsored Transactional Travel                                   OIG-AR-10-04
                                 Audit Report


              APPENDIX A: MANAGEMENT RESPONSE




                                      9         Office of Inspector General
                                                   Export-Import Bank of the United States
Sponsored Transactional Travel                                   OIG-AR-10-04
                                 Audit Report




                                     10         Office of Inspector General
                                                   Export-Import Bank of the United States
